Wiggin and Dana LLP
One Century Tower
265 Church Street
New Haven, Connecticut
06510
www.wiggin.com

Jonathan M. Freiman
203.498.4584
203.782.2889 fax
jfreiman@wiggin.com

October 30, 2019

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Alan Philipp, et al., v. Federal Republic of Germany, et al., No. 19-520

Dear Mr. Harris:

A conditional cross-petition for writ of certiorari in the above-captioned case was filed on
October 18, 2019 and placed on the docket on October 22, 2019. I respectfully request,
under Rule 30.4 of the rules of this Court, a 3-week extension of time up to and including
December 13, 2019, in which to file a brief in opposition, which would otherwise be due on
November 21, 2019.
A 3-week extension up to and including December 13, 2019 will ensure sufficient time to fully
analyze and respond to the arguments raised in the conditional cross-petition. The request is
made in light of counsel's pre-existing obligations in other matters and in view of the time
needed to fully advise the foreign sovereign defendant named here as conditional cross­
respondent. Counsel for conditional cross-petitioner has consented to this request.
Thank you for your consideration of this request.
Respectfully,

Jonathan M. Freiman

JF:ak

cc:

Nicholas M. O'Donnell
Counsel for Petitioner
(via email)

CONNECTICUT I NEWYORK I PHILADELPHIA l WAS HIN GTO N, DC I PALM BEACH

